                           AUDIT OF SBA'S [FOIA ex. 2] 

                         ELECTRONIC FORMS SYSTEM 


                          AUDIT REPORT NUMBER 5-25 


                               SEPTEMBER 23, 2005 





This report may contain proprietary information subject to the provisions of 18 USC
1905 and must not be released to the public or another agency without permission of the
Office of Inspector General.
                    U.S. SMALL BUSINESS ADMINISTRATION 

                        OFFICE OF INSPECTOR GENERAL 

                           WASHINGTON, D.C. 20416 



                                                               AUDIT REPORT
                                                    Issue Date: September 23, 2005
                                                    Number: 05-25


To:            Delorice P. Ford
               Chief Privacy Officer

               Charles McClam
               A~ting Chief Information Officer

               [FOIA ex. 6]
From:          Robert G. Seabrooks
               Assistant Inspector General for Audit

Subject:       Audit of SBA's [FOIAex. 2] Electronic Forms System

        We have completed an audit ofSBA's [FOIAex. 2] electronic forms system. The
audit identified one fmding and two recommendations. The audit results are presented
below.

                                     BACKGROUND

        SBA's [FOIA ex. 2] electronic forms system was implemented in 1997 to automate
Agency workflow and is currently in use. [FOIA ex. 2] provides SBA employees with an
electronic alternative to paper forms by means of database technology. This technology
allows users to access, fill and save electronic forms to a specified location, either public
or private. [FOIA ex. 2] is no longer supported by its vendor, [FOIA ex. 2]
and no new official government forms are being converted to [FOIA ex. 2]

                   OBJECTIVES, SCOPE AND METHODOLOGY

       The objective of this audit was to determine whether SBA's [FOIAex. 2] electronic
forms system allows for the inappropriate disclosure of personally identifiable
information. [FOIA ex. 2]



      To accomplish these objectives we reviewed applicable laws and regulations,
conducted interviews with SBA management responsible for the administration of
 [FOIAex. 2]and tested for disclosure at both SBA Headquarters and Field Office locations.
We also interviewed SBA' s Privacy Officer to establish a legal perspective on the
disclosure of private information on SBA employees through [FOIA ex. 2] Fieldwork was
performed at SBA's Central Office in Washington, DC, National Guaranty Purchase
Center in Herndon, VA and SBA Offices in Glendale, CA, Forth Worth, TX and Atlanta,
GA, from March through August 2005. Our audit was conducted in accordance with
Generally Accepted Government Auditing Standards.

                                   AUDIT RESULTS

       We determined that SBA's [FOIA ex. 2] electronic forms system was susceptible to
unauthorized disclosure of personal or Privacy Act information. This information
included individual SBA employee's names, employee identifier or social security
numbers, addresses,phone numbers and dates of birth. The lack of controls to prevent
unauthorized disclosure of these records is a violation of the Privacy Act.

Finding 1: 	 SBA's [FOIAex.2] System was not Secure Against Unauthorized
             Disclosure

       SBA's [FOIAex. 2] electronic forms system did not have adequate security controls
to prevent against unauthorized disclosure of personal and Privacy Act information of
Agency perSOilnel.


                                      [FOIA ex. 2]




        The Privacy Act of 1972 defines the term "record" to mean any item, collection,
or grouping of information about an individual that is maintained by an agency,
including, but not limited to, his education, financial transactions, medical history, and
criminal or employment history and that contains his name, or the identifying number,
symbol, or other identifying particular assigned to the individual, such as a finger or
voice print or a photograph. Additionally, the_Act i4entifi~~ th~tnoagellcy shaRdis~Jo~~
any -record wruch isconiru.ned· in a system of records by any means of communication to
any person, or to another agency, except pursuant to a written request by, or with the
prior written consent of, the individual to whom the record pertains, unless disclosure of
the record would be to those officers and employees of the agency which maintains the
record who have a need for the record in the performance of their duties.

       We determined that the following SBA [FOIAex. 2] system electronic forms contain
information maintained by the agency on SBA employees [FOIAex.2]




                                             2
           •   [FOIA ex. 2]
           •   [FOIA ex. 2]
           •   [FOIA ex. 2]
           •   [FOIA ex. 2]


        These forms were selected for audit testing to   [FOIA ex. 2]




        Access to sensitive. data for each of the forms was tested at: (1) SBA Headquarters
in Washington, DC, (2) Glendale, CA, (3) Fort Worth, TX, and (4) Herndon, VA. In all
locations tested, we were able to obtain personal or Privacy Act information on current or
past SBA personnel via the [FOIAex. 2] System.     [FOIAex.2]




        The Office of Chief Information Officer owns and operates SBA' s [FOIA ex. 2]
system and is responsible for ensuring that SBA employees are adequately trained to use
the system
                                     [FOIA ex. 2]




Recommendation:

LA 	 We recommend that the Acting Chief Information Officer implement a
     replacement capability and fully discontinue the use of the [FOIA ex. 2] system.

I.B 	   We recommend that the Chief Privacy Officer identify the [FOIA ex. 2] System as in
        violation of the Privacy Act until the system is repaired or replaced.

Management Comments:

        SBA did not provide formal management comments to this report, but met with us
.on September !Land $ eptemher 21,.2005. SBA fully agreed with the draft report. The. __ _
 Chief Privacy Officer ideFltified that [FOIA ex. 2] would be identified as in violation of the
 Privacy Act in the current years' report.
                                      [FOIA ex. 2]

                         SBA had converted [FOIA ex. 2]
estimated full replacement of the [FOIAex. 2] System by December 31,2005. SBA plans to
issue an Information Notice in the near future as part of their actions to close this issue.




                                              3
Evaluation of Management's Comments:

           SBA's comments were responsive to the recommendations. We modified the
 initial recommendations from the draft report to reflect that SBA decided to replace the
[FOIA ex. 2] system rather than repair it.



                                                       *** 

       The findings included in this report are the conclusions of the Auditing Division
based upon the auditors' review of the [FOIA ex. 2] electronic forms system. The findings
and recommendations are subject to review and implementation of corrective action by
your office following the existing Agency procedures for audit follow-up and resolution.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission ·ofthe
Office of Inspector General

       Should you or your staff have any questions, please contact Jeffrey R. Brindle,
Director, Infonnation Technology and Financial Management Group, at (202) 205- [FOIAex. 2]


Attachments




     ..   __.-   -_._._--_. __   .   __   ... -   ._--_.. - - - - - - ­




                                                          4
